<html>
<title> - UNION TIME ON THE PEOPLE'S DIME: A CLOSER LOOK AT OFFICIAL TIME</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



    UNION TIME ON THE PEOPLE'S DIME: A CLOSER LOOK AT OFFICIAL TIME

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         GOVERNMENT OPERATIONS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 24, 2018

                               __________

                           Serial No. 115-86

                               __________

Printed for the use of the Committee on Oversight and Government Reform



               
               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 
         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
                       
                       
                                 ________
                       
                     U.S. GOVERNMENT PUBLISHING OFFICE
                
31-272 PDF                   WASHINGTON: 2018
  
                       
                       
                       
                       
              Committee on Oversight and Government Reform

                  Trey Gowdy, South Carolina, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Virginia Foxx, North Carolina        Jim Cooper, Tennessee
Thomas Massie, Kentucky              Gerald E. Connolly, Virginia
Mark Meadows, North Carolina         Robin L. Kelly, Illinois
Ron DeSantis, Florida                Brenda L. Lawrence, Michigan
Dennis A. Ross, Florida              Bonnie Watson Coleman, New Jersey
Mark Walker, North Carolina          Raja Krishnamoorthi, Illinois
Rod Blum, Iowa                       Jamie Raskin, Maryland
Jody B. Hice, Georgia                Jimmy Gomez, Maryland
Steve Russell, Oklahoma              Peter Welch, Vermont
Glenn Grothman, Wisconsin            Matt Cartwright, Pennsylvania
Will Hurd, Texas                     Mark DeSaulnier, California
Gary J. Palmer, Alabama              Stacey E. Plaskett, Virgin Islands
James Comer, Kentucky                John P. Sarbanes, Maryland
Paul Mitchell, Michigan
Greg Gianforte, Montana

                     Sheria Clarke, Staff Director
                  Robert Borden, Deputy Staff Director
                    William McKenna, General Counsel
                 Kevin Ortiz, Professional Staff Member
                         Kiley Bidelman, Clerk
                 David Rapallo, Minority Staff Director

                                 ------                                

                 Subcommittee on Government Operations

                 Mark Meadows, North Carolina, Chairman
Jody B. Hice, Georgia, Vice Chair    Gerald E. Connolly, Virginia, 
Jim Jordan, Ohio                         Ranking Minority Member
Mark Sanford, South Carolina         Carolyn B. Maloney, New York
Thomas Massie, Kentucky              Eleanor Holmes Norton, District of 
Ron DeSantis, Florida                    Columbia
Dennis A. Ross, Florida              Wm. Lacy Clay, Missouri
Rod Blum, Iowa                       Brenda L. Lawrence, Michigan
                                     Bonnie Watson Coleman, New Jersey
                                     
                                     
                                     
                                     
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 24, 2018.....................................     1

                               WITNESSES

Mr. Trey Kovacs, Policy Analyst, Competitive Enterprise Institute
    Oral Statement...............................................     5
    Written Statement............................................     7
Mr. Bob Gilson, Senior Labor and Employee Relations Consultant 
  and Author
    Oral Statement...............................................    15
    Written Statement............................................    17
Mr. Darrell M. West, Vice President and Director of Governance 
  Studies, Brookings Institution
    Oral Statement...............................................    33
    Written Statement............................................    35

                                APPENDIX

Committee Staff Report on Official Time Data, Submitted by 
  Chairman Meadows...............................................    52
The Official Time Usage Report for FY 2016, submitted by Chairman 
  Meadows........................................................    59
Letter for the Record from the Department of Education, submitted 
  by Chairman Meadows............................................    86
Democratic Rebuttal to the Republican Staff Memo, submitted by 
  Ranking Member Connolly........................................    88
Statement for the Record of the National Treasury Employees 
  Union, submitted by Ranking Member Connolly....................    91
Statement for the Record of the American Federation of Government 
  Employees, submitted by Ranking Member Connolly................    94
Statement for the Record of the International Federation of 
  Professional and Technical Engineers, submitted by Ranking 
  Member Connolly................................................    97
Unfair Labor Charge filed by the AFGE against the Department of 
  Education, submitted by Ranking Member Connolly................    99
Editorial from The Ledger, submitted by Mr. Ross.................   101
Questions for the Record for Mr. Robert Gilson, submitted by 
  Ranking Member Connolly........................................   110
  

 
    UNION TIME ON THE PEOPLE'S DIME: A CLOSER LOOK AT OFFICIAL TIME

                              ----------                              


                         Thursday, May 24, 2018

                  House of Representatives,
             Subcommittee on Government Operations,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 10:44 a.m., in 
Room 2154, Rayburn House Office Building, Hon. Mark Meadows 
[chairman of the subcommittee] presiding.
    Present: Representatives Meadows, Hice, Jordan, DeSantis, 
Ross, Blum, Connolly, Maloney, and Norton.
    Mr. Meadows. The Subcommittee on Government Operations will 
come to order. Without objection, the chair is authorized to 
declare a recess at any time.
    Official time is a term for Federal employees performing 
union representational activities during normal working hours 
while getting paid for their regular salaries. A number of 
employees using official time and the amount of hours spent on 
it are governed by collective bargaining agreements at 
agencies. Some collective bargaining agreements even allow for 
certain employees to spend 100 percent of their time on 
official time, meaning that they never do the job that they 
were hired to do.
    On January 9, I, along with some of my colleagues of this 
committee and the Senate Homeland Security and Governmental 
Affairs Committee, sent a letter to 24 agencies requesting 
information on official time usage in the Federal Government. 
The results were quite interesting and likely surprising to the 
average taxpayer.
    Some 12,508 employees at 23 agencies in fiscal year 2017 
used official time in some capacity. Of those, nearly 1,000 
spent half or all of their workday on official time. And 
another 221 employees in this category were paid over $100,000 
by the Federal Government. In total, the Federal Government 
spends $1 billion on salaries of employees who took at least 
some of their work time as official time.
    Every hour spent on official time is an hour spent away 
from some of the critical tasks the Federal Government really 
has before it. In the case of the Veterans Affairs Department, 
there are 472 employees who spent 50 percent or more of their 
time on official time, meaning that they were not caring for 
the veterans.
    And in the case of the Internal Revenue Service, 185 
employees spent 100 percent of their time performing 
representational work on behalf of the union, which means that 
they are not serving the American taxpayer.
    I ask that the committee staff report be inserted into the 
record. Without objection, so ordered.
    Mr. Meadows. Now, while not performing the work an employee 
was hired to do is bad enough, there are other aspects of 
official time that can impact the mission. Official time allows 
unions to follow grievances and appeals to the administrative 
agencies and bring the work of the government to a halt.
    By way of example, we have heard from a Federal employee 
who told us that after repeated requests that an employee come 
to work on time, this employee complained that the official was 
harassing the employee and filed a grievance. The union 
representative got involved, and after weeks of back and forth, 
the employee's agency allowed the employee to push back her 
start time by 15 minutes. Now, to me, as a private business 
guy, this sounds absurd.
    The grievances filed while on--filled while on official 
time can also implicate national security. Luke Air Force Base 
in Arizona ended off-base access to email system with only a 
password after it experienced multiple security breaches. The 
union filed a grievance arguing that this was a change in the 
working conditions that the Air Force base first needed to do 
negotiate.
    Now, this committee is not alone in examining official 
time. A recent Office of Personnel Management report found that 
official time usage is on the rise governmentwide. The Federal 
Government saw a 4.76 percent increase in hours spent on 
official time from fiscal year 2014 to fiscal year 2016. OPM 
also estimated that the total cost of official time in fiscal 
year 2016 to be $177.2 million. OPM said that this number does 
not reflect the true total cost, because OPM does not--the OPM 
report does not take into account government costs relating to 
the free use of government property and supplies by union 
officials.
    So I'd ask that the official time usage report for fiscal 
year 2016 of the Federal Government be submitted into the 
record. Without objection, so ordered.
    Mr. Meadows. This administration is taking steps to reverse 
this troubling trend. Recently, the Department of Education 
narrowed considerably the amount of official time employees may 
use, but it did not eliminate it.
    I would like to enter into the record from the Department a 
letter explaining the recent changes made to the collective 
bargaining agreement. Without objection, so ordered.
    Mr. Meadows. And in a hearing last week, the new director 
of OPM testified official time is a problem at agencies and 
that the administration is committed to reexamining its use.
    I would like to thank the witnesses today for their 
testimony and look forward to hearing their insightful 
comments.
    And with that, I recognize the ranking member, the 
gentleman from Virginia, Mr. Connolly, for his opening remarks.
    Mr. Connolly. I thank the chair.
    And I would ask at this point before I begin, Mr. Chairman, 
unanimous consent that the Democratic rebuttal to the 
Republican staff memo, which was not cleared on our side, be 
entered into the record.
    Mr. Meadows. Without objection.
    Mr. Connolly. I thank the chair.
    When Congress enacted the Civil Service Reform Act, 
Congress found that, and I quote, ``labor organizations and 
collective bargaining in the civil service are in the public 
interest.'' Because the reality is that unions contribute to 
the effective conduct of public business and facilitate 
settlements of employee disputes.
    Federal unions are required to represent all employees 
within a bargaining unit, including those who do not pay dues 
and may not seek fees from nonmembers. In exchange for those 
representational duties, the Civil Service Reform Act 
authorized the use of official time. The legal authorization 
for designated Federal employees to protect whistleblowers, 
represent colleagues in grievances against abuse, and negotiate 
collective bargaining agreements. Sometimes they're 
troubleshooters who can diffuse a situation before it gets to 
the litigation stage.
    The truth is that official time is authorized by law, 
negotiated by agency management with the union, and is intended 
to promote the peaceable resolution of disputes and the 
efficient operation of government. Unions and agencies must 
agree on the amount of time for representational activities, 
which must be, and I quote, ``reasonable, necessary, and in the 
public interest.''
    Congress carefully crafted a collective bargaining system 
for the Federal Government that balanced the interests of the 
agencies involved, Federal employees, and the American public 
we all serve. The cost of all of these benefits: just 40 
seconds per day. That's the amount of time per Federal employee 
official time costs the Federal Government, according to the 
Office of Personnel Management. That is less than the time it 
takes to get a cup of coffee, like this one like I got right 
here.
    Do my Republican friends want to prohibit Federal employees 
from getting their morning coffee because it's a drain on the 
Federal Government? This hearing isn't about protecting the 
taxpayer dollar. As the Republican staff memo makes all too 
clear, it's about attacking Federal employees, a central theme 
of this Congress, unfortunately, and the Trump administration.
    Last week, the Oversight Committee held a hearing to 
discuss the recently issued President's management agenda and 
the President's plan to take $143 billion from middle class 
Federal workers in wage and retirement cuts and to use their 
money to partially offset the cost of a $1.5 trillion tax 
giveaway to the wealthy. During this administration, Federal 
employees have had to deal with efforts to gut the missions of 
Federal agencies, attacks on the Federal workforce, and their 
retirement benefits, as well as the repression of and 
retaliation against Federal whistleblowers. We might even add 
censorship to scientists trying to do their work.
    Federal employees need more support and avenues for 
redress, not fewer. Whether it's through congressional 
oversight, inspector general investigations, or through union 
representatives, we should be giving Federal employees the 
tools they need to sound the alarm against the activities that 
make it harder for the Federal Government to work for the 
American people.
    If our committee wants to quibble over the 40 seconds spent 
on official time, it should also look into how some of the 
Trump administration political appointees spend their time. 
According to numerous press reports, Millan Hupp, the director 
of scheduling and advance for the EPA Administrator, Scott 
Pruitt, spearheaded Administrator Pruitt's search for new 
housing after he moved out of a sweetheart deal at a condo he 
rented for $50 a night from the wife of a lobbyist who had 
business before the Agency. Part of Ms. Hupp's search, 
including contacting real estate companies and viewing 
apartment options for Administrator Pruitt, clearly took place 
on official hours.
    Or this committee could look into the White House 
Presidential Personnel Office. In March, The Washington Post 
reported that that office, which has struggled to fill 
vacancies throughout the Federal Government, has become, quote, 
``a social hub where young staffers throughout the 
administration stop by to hang out on couches and smoke 
electronic cigarettes.'' PPO leaders regularly host happy hours 
in their offices that include beer, wine, and snacks, but not 
only PPO employees, but also White House liaison who work for 
other Federal agencies. And in January, they played a drinking 
game in the office called ``icing'' for one employee's 
birthday. I've been informed that icing involves hiding a 
bottle of Smirnoff Ice and demanding that the person who 
discovers it drink it as quickly as possible.
    Now, these individuals may be able to guzzle a 12-ounce 
bottle of flavored malt liquor in 40 seconds, but it's still an 
infinitely less productive use of company time than official 
time.
    I look forward to hearing from our witnesses today on their 
perspectives regarding the impact of official time on the 
efficiency and effectiveness of Federal Government, and for 
that matter, the use of any time by any Federal employee on 
government time.
    Thank you, Mr. Chairman.
    Mr. Meadows. I thank the gentleman for his statements. And 
I agree that some of the behavior that was talked about is 
certainly something that we do need to look at, and I'd be glad 
to do that in a bipartisan way.
    I'd like to thank the witnesses for coming today. I'll 
introduce Mr. Trey Kovacs, policy analyst at the Competitive 
Enterprise Institute; Mr. Bob Gilson, senior labor and employee 
relations consultant and author. Welcome. And Mr. Darrell West, 
vice president and director of government studies at Brookings 
Institute. Welcome.
    Welcome to you all.
    And pursuant to committee rules, all witnesses will be 
sworn in before they testify. If you would please rise and 
raise your right hand.
    Do you solemnly swear or affirm that the testimony you're 
about to give is the truth, the whole truth, and nothing but 
the truth, so help you God?
    All right. Thank you. You may be seated.
    Please, the record should reflect that all witnesses 
answered in the affirmative.
    In order to allow time for enough questions and answers, I 
would ask that you limit your oral testimony to 5 minutes, but 
your entire written testimony will be made part of the record. 
There is a clock there in front of you, and so if you will just 
please press the red button when you go to speak and speak into 
the microphone.
    Mr. Kovacs, we recognize you for 5 minutes.

                       WITNESS STATEMENTS

                    STATEMENT OF TREY KOVACS

    Mr. Kovacs. Chairman Meadows, Ranking Member Connolly, and 
members of the subcommittee, thank you for holding this hearing 
and providing me the opportunity to discuss official time in 
the Federal workforce.
    My name is Trey Kovacs, and I am a labor policy analyst at 
the Competitive Enterprise Institute. CEI is a nonprofit, 
nonpartisan public policy organization that focuses on 
regulatory issues from a free market and limited government 
perspective.
    Official time grants Federal employees paid time off from 
their government duties to perform union business. This 
taxpayer-funded subsidy to Federal employee unions enables them 
to file grievances, bargain, and even lobby Congress, among 
other activities.
    Unfortunately, the reality is that no one really knows how 
much time and money is spent by the Federal Government on 
official time. In addition, the lack of transparency 
surrounding the practice makes it impossible to know what 
specific activities are performed by Federal employees on 
official time. However, the Office of Personnel Management does 
occasionally produce a report that estimates the cost of 
official time.
    According to the latest data available from the OPM, in 
fiscal year 2016, official time cost approximately $175 
million, and employees spent 3.6 million hours conducting union 
activities instead of their assigned public duties.
    Problems with official time, other than poor recordkeeping, 
have been recognized by administrations from both political 
parties. During the Clinton administration, the OPM explained 
when Federal employees are on official time they are not 
available to perform the duties associated with their regular 
positions. This can hamper the agency in accomplishing its 
mission, as certain assignments must be either be delayed, 
covered by other employees, or accomplished through the use of 
overtime. The use of significant amounts of official time may 
adversely affect an employee's ability to keep his or her 
technical skills current.
    Given these problems associated with official time, it is 
past time to consider legislative reforms. Congress should 
enact legislation to eliminate the practice of official time. 
One potential reform could eliminate official time and nullify 
a frequent union argument in favor of the union subsidy.
    Unions contend that official time is necessary because 
Federal employee unions are required by law to represent 
nonmembers who do not pay dues. This problem can easily be 
solved by lifting the legal requirement for Federal employee 
unions to represent nonmembers. Congress should consider 
implementing what is known as Workers Choice, a members-only 
union policy that relieves unions of the obligation to 
represent nonmembers, and as a result, eliminates the need for 
official time.
    Membership in and representation by a union should be 
voluntary. Nonmembers should not be forced to work under a 
union-negotiated agreement they do not want, and unions should 
not be forced to represent employees who do not pay dues. A 
policy of Workers Choice addresses union concerns, eliminates 
the need for official time, and protects workers' freedom of 
association.
    Short of eliminating official time, Federal agencies must 
track and record official time in greater detail and with more 
precision. Under the current accounting regime, the cost of 
official time is severely underestimated. Further, the true 
cost of the union subsidy is difficult to determine because of 
poor tracking and recording of when employees use official 
time.
    Across the Federal Government, what activities Federal 
employees engage in while on official time is relatively 
unknown. The enactment of H.R. 1293, sponsored by 
Representative Dennis Ross, would increase transparency 
regarding official time. Specifically, it requires OPM to 
furnish a report on the cost of official time throughout the 
Federal Government on an annual basis, which includes 
information presented in the current OPM report, details the 
specific activities for which official time was granted, 
details official time's impact on agency operations, and 
determine the amount of office space granted to unions to 
conduct official time activities.
    Taxpayers have a right to know how much tax dollars are 
used to finance official time and what activities Federal 
employees undertake instead of the job they are hired to do. I 
applaud the subcommittee's inquiry into the use of official 
time, and I would welcome any questions.
    Thank you.
    [Prepared statement of Mr. Kovacs follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Meadows. Thank you so much.
    Mr. Gilson, you're recognized for 5 minutes.

                    STATEMENT OF BOB GILSON

    Mr. Gilson. Mr. Chairman, members, thank you for the 
opportunity----
    Mr. Meadows. If you'll hit the red button there.
    Mr. Gilson. Thank you for the opportunity to address the 
subcommittee. I'm a retired Federal employee. I've worked in 
this area for over 40 years. As an agency representative, 
adviser, advocator, and negotiator, I regularly write for 
FedSmith, a website devoted to Federal issues, and have done so 
for over 10 years. I currently train, advise, and bargain on 
behalf of Federal agencies as a contractor.
    The Civil Service Reform Act was passed in 1978, and I was 
at the Civil Service Commission at that time as a labor 
relations person. Its labor relations provisions were touted by 
its sponsors as an encoding of President Nixon and President 
Ford's executive orders. It was to establish basic employee 
rights under a law continuing as it did before. The law has 
turned into a Pandora's box of unintended consequences.
    One result, and why we're here today, is the evolution of a 
concept of official time no one 40 years ago either intended or 
would believe.
    The law's creation of a Federal Labor Relations Authority 
and general counsel to administer government labor relations 
has had far-reaching consequences on Federal Government. The 
case law expanding the statute's official time and the creation 
of other broad and costly union subsidies is only one such 
sequence.
    Recently, OPM issued a report on official time for fiscal 
year 2016. OPM admits the report relies on agencies' 
submissions and that some agencies didn't even submit reports. 
This report, frankly, should not be relied upon. No one knows 
what official time costs. No one.
    As an example, the report says the Justice Department 
unions use the same official time as the Department of Defense. 
Justice has about 120,000 employees. Defense has 750,000. I 
believe DOD is more organized than Justice is in terms of labor 
relations. It also reports that VA, the Department of Veterans 
Affairs, is almost three times as much as DOD or DOJ, but yet 
VA has less than half the number of employees of the Department 
of Defense. VA's numbers are probably closer to the truth, but 
are also unreliable.
    Based on my 44 years representing agencies and interacting 
with program managers, I bet OPM's gross total is low by a 
factor of 5 or 10, and that's not a percentage figure. No one 
knows.
    By the way, labor relations official time is not the only 
official time representatives get. In 2009, President Obama 
issued Executive Order 13522 requiring agencies to engage in 
predecisional involvement on agency decisions and other 
activities. The unions complained that agencies would hold them 
to official time in labor agreements. They were advised by OPM 
that since they were complying with a Presidential order, duty 
time, not official time, would be appropriate for union 
involvement in order activities. Many thousands of hours were 
used under this order. No one knows what it cost.
    The Equal Employment Opportunity regulations creates what 
it also calls official time. A Federal employee representing an 
EEO complainant in any stage of the process is on EEOC's 
official time. EEOC also specifies the activities warranting 
its official time. There are literally hundreds of thousands of 
EEO allegations a year. No one knows what this costs. Also true 
of the Merit Systems Protection Board and Workers' 
Compensation. I did not include EEOC, MSPB, or OWCP time in my 
estimates.
    In agencies you might ask why don't they hold people 
accountable for this? Well, if you're a supervisor and you have 
a union steward, are you going to risk the ULPs and grievances 
if you try to hold their feet to the fire? In addition, if 
somebody is representing someone in an EEO complaint and 
management holds their feet to the fire on reporting time, what 
they'll get is a reprisal complaint. That's a fact.
    Official time, however defined, and other free services 
have never been accurately reported. All of the costs--office 
space, furniture, computers, internet space--all of these costs 
are covered by labor agreements in the government. Nobody knows 
what they cost.
    Federal unions pay nothing inside an agency to represent 
employees, not a single penny. When they walk in the door, 
their official time, their offices, their space, in many cases 
their travel, their training of the representatives is all paid 
for by the taxpayer.
    In closing, no one in 1978, not even the unions themselves, 
would have believed that the cost of Federal employee union 
representation would be entirely borne by the taxpayer and that 
virtually all union dues would be available to those unions as 
discretionary funds. The taxpayer has paid many billions of 
dollars over the last 40 years for Federal labor union activity 
and growth. I for one don't have a clue what they got for their 
money, because nobody knows what this actually costs.
    Thank you, Mr. Chairman.
    [Prepared statement of Mr. Gilson follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Meadows. Thank you, Mr. Gilson.
    Mr. West, you're recognized for 5 minutes.

              STATEMENT OF DARRELL M. WEST, PH.D.

    Mr. West. Thank you.
    Chairman Meadows, Ranking Member Connolly, and members of 
the subcommittee, thank you for the opportunity to testify. I 
am vice president of governance studies at the Brookings 
Institution and the author of several books. My newest book is 
The Future of Work: Robots, AI, and Automation, and it looks at 
the impact of new technologies on the workplace, education, and 
public policy.
    What I want to do today is to summarize my testimony on 
official time, and I'm going to talk about three points: How 
much it costs the Federal Government, the benefits of official 
time, and how proposed changes would affect Federal employees.
    In its April report, the Office of Personnel Management 
estimated that official time in fiscal year 2016 totaled 3.6 
million hours and cost around $174.8 million. That comes to 
2.95 hours per employee each year, and that compares to 2.88 
hours in fiscal year 2014. Based on that, the report concluded 
that the overall 2016 hourly total represents an increase in 
official time over that of fiscal year 2014. But based on my 
reading on the report, I don't believe that conclusion is 
warranted by the data.
    The difference between 2.95 hours and 2.88 hours in 2014 is 
seven-hundredths of an hour or 4 minutes per employee for the 
year. A GAO analysis indicated concern about the OPM 
methodology and notes that the OPM estimate could be higher or 
lower. Given those data limitations, it's impossible to know if 
official time costs are rising, staying the same, or actually 
decreasing.
    There are a number of benefits of official time. Among the 
activities that take place through that mechanism include 
things such as the discussion of grievances, dispute 
resolutions, labor relations training, and new department 
initiatives, among other things. These activities are important 
for labor management relationships and they promote a public 
purpose. They establish vehicles for communications. They 
provide opportunities for employees to air grievances, and they 
offer a mechanism to resolve conflict. As such, they are vital 
for agency operations.
    There have been several efforts to alter current rules on 
official time. For example, the U.S. Department of Education 
has eliminated official time as part of its new labor contract. 
In addition, the Official Time Reform Act of 2017 proposes 
major changes in the existing law. For example, it says that an 
employee may not be granted official time for purposes of 
engaging in any political activity, including lobbying 
activity.
    In my view, adoption of this provision would weaken labor 
management relations in the Federal Government, would reduce 
the ability of government employees to air their concerns with 
management, and undermine agency performance. Like every other 
American, it is important that Federal employees have the right 
to express their viewpoints and petition government for a 
redress of grievances. I think curtailing those rights would 
deny Federal workers important privileges that are guaranteed 
by the U.S. Constitution.
    Thank you, and I'd be happy to answer any questions.
    [Prepared statement of Mr. Mr. West follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hice. [presiding.] Thank you very much.
    Mr. Connolly. Mr. Chair?
    Mr. Hice. Yes, sir.
    Mr. Connolly. I'm sorry. Just a unanimous consent request. 
I have four documents I would ask to enter into the record: a 
statement of the National Treasury Employees Union, the 
statement of the American Federation of Government Employees, 
the statement of the International Federation of Professional 
and Technical Engineers, and a copy of an unfair labor charge 
filed by the American Federation of Government Employees 
against the Department of Education.
    Mr. Hice. Without objection.
    Mr. Connolly. I thank the chair.
    Mr. Hice. You're welcome.
    I will now recognize myself for 5 minutes.
    I thank each of the witnesses for being here. We've got--do 
I have a graph? Is it available? If not, I'll go over some of 
the basics of it.
    There's been an increase in official time since 2010 
through 2016 of over 17 percent. 3.6 million hours were used on 
official time in 2016.
    Mr. Kovacs, Mr. Gilson, do those figures sound somewhat 
accurate to you from, what you've tracked?
    Mr. Kovacs. Yes. I mean, that does sound accurate, but as I 
said in my testimony, as well as Mr. Gilson, you know----
    Mr. Hice. Severely unreliable.
    Mr. Kovacs. Yes.
    Mr. Hice. Underestimated.
    Mr. Gilson, does that sound ballparkish to you?
    Mr. Gilson. No. The OPM admits that its report is 
inaccurate.
    Mr. Hice. All right. So more or less?
    Mr. Gilson. I'd say it's--as I said in my testimony, it's 
low by a factor of 5 or 10.
    Mr. Hice. Okay. All right. So we've got, based on what OPM 
has given us, we've got somewhere--if you take an average 8-
hour day, we have almost half a million days a year that the 
taxpayers are paying.
    Mr. Gilson. Easy.
    Mr. Hice. And as your testimony is what you're saying 
today, Mr. Kovacs, that is severely underestimated. This is 
quite disturbing to many of us because it's all riding on the 
backs of the taxpayers.
    Now, just for an example, the Department of Veterans 
Affairs has nearly 2,000 employees who are involved in official 
time in one capacity or another, hundreds of them 100 percent 
of their time doing official time. So they were hired to do a 
specific job and they're doing none of that job, instead doing 
100 percent union work but getting paid for the job they were 
hired to do.
    Of these 100 percent people on official time, who is doing 
the work that they were hired to do, Mr. Kovacs?
    Mr. Kovacs. Well, it's unknown. Potentially, new hires 
would have to be made to do their work, overtime assignments 
would have to be given to employees who are not on official 
time. But due to the lack of reporting, it's unclear. 
Potentially, their jobs were not met, and potentially, the work 
was not done.
    Mr. Hice. Mr. Gilson, would you agree with that?
    Mr. Gilson. There's an early FLRA case, Federal Labor 
Relations Authority case, which said that whatever time was 
negotiated, the agency--or used, the agency was obviously 
obliged to get its work done.
    Mr. Hice. Okay. So with the VA, just for example, of those 
who were involved in 100 percent official time, we have nurses, 
addiction therapists, pharmacists, physicians, we have people 
who are very important to the care of veterans not doing the 
job they were hired, 100 percent of their time going to unions. 
This is very disturbing to me.
    Mr. Gilson, something you said in your testimony I want to 
come back to that caught my attention. You said, quote: 
``Federal unions pay almost nothing toward the cost of their 
day-to-day operations within the agency. This creates large 
surpluses that may support lobbying, organizing, and other 
internal union business since the taxpayer is paying 
operational costs.''
    That is quite a powerful statement. Are you saying that 
these Federal employee unions can't afford to divert resources 
to other activities besides union operations because the 
taxpayer is subsidizing the union in essence?
    Mr. Gilson. AFGE currently has a $54 million set of assets 
that is able to build--and by the way, that is the national 
headquarters. That doesn't count their councils and locals. I 
would say it's probably $150 million in assets.
    Mr. Hice. All right. And those are coming from the 
taxpayers.
    Mr. Gilson. Coming from the dues paid because they don't 
pay any----
    Mr. Hice. Dues and taxpayers, okay.
    Mr. Gilson. Yes.
    Mr. Hice. So is it fair to say that taxpayers are 
subsidizing them?
    Mr. Gilson. One hundred percent.
    Mr. Hice. All right. So you mentioned AFGE. How involved 
are they politically?
    Mr. Gilson. That's a question I don't know the answer to, 
Congressman. I do know that they send--they don't send Federal 
employees out, but they do send their employees out to work 
either on behalf of or against people running for office.
    Mr. Hice. Well, I can answer that question. They spent 
nearly $2 million last cycle giving to employees--or giving to 
candidates, 92 percent were Democrats. The National Treasury 
employee, the IRS union, right at 96 percent of their donations 
went to Democrats.
    I think when all of this is riding on the backs of 
taxpayers, it seems greatly alarming that the taxpayers are 
paying, number one, for people to do union work rather than the 
job they were hired to do, but then the union turns around and 
is involved in lobbying and political activity. Is that 
something that the unions are supposed to be involved with? Mr. 
Kovacs?
    Mr. Kovacs. Well, certainly labor unions have every right 
to engage in political activities. I would just say that, you 
know, the taxpayer shouldn't have to subsidize their 
representational activities.
    Mr. Hice. All right. That's the point I'm getting at. I 
realize my time has expired.
    I will now recognize the ranking member for 5 minutes.
    Mr. Connolly. I thank the chair.
    Of course, what's good for the goose is good for the 
gander. If we're going to talk about political support, I 
wonder what kind of tax payoff Sheldon Adelson got and the Koch 
brothers got in the recent tax cut bill, and who do they 
support? Almost exclusively Republicans.
    So if we're going to talk about, you know, quid pro quos or 
the implication of quid pro quos, we can certainly have that 
discussion. I'd be glad to have that discussion.
    I assume labor unions support people who support them. They 
act in their own self-interests, like any other donor. Mr. 
West, might you agree with that?
    Mr. West. I would certainly agree with that. And all of the 
activities that we're talking about, the establishment of 
official time, the activities that are taking place, were 
authorized by the Civil Service Reform Act of 1978. And I would 
just like to remind members of the subcommittee that Act passed 
the Senate on an 87-to-1 vote, and the House agreed to the 
conference report on a 365-to-8 vote. So it was passed on a 
purely bipartisan basis. Almost nobody in Congress opposed it.
    Mr. Connolly. Okay. But Mr. Gilson makes a point. He says, 
yes, that's true, but in 1978, nobody foresaw the expansion of 
the use of official time. No one had that in mind, when they 
passed that bill, that it's evolved into something that would 
not be recognizable to those people. Would you comment on that?
    Have I got that accurate, Mr. Gilson?
    Mr. Gilson. Yes, sir.
    Mr. Connolly. Yes. Mr. West, what about that?
    Mr. West. I mean, what the legislation allowed was for 
representatives to assist their colleagues when their 
colleagues had grievances. If there was some disagreement in 
the workplace, if there is a sexual harassment charge, if there 
is a grievance that needed to get fired. So these individuals 
who are being supported through official time are helping their 
fellow employees. I see nothing wrong with that.
    Mr. Connolly. Okay. I want to explore that a little bit, 
because you talked in your testimony about the benefits of 
official time. Now, to listen to the narrative so far in this 
hearing, with the exception of you and me, one would assume 
that official time is a, you know, just a sinkhole. No good 
comes out of it. It's all on the taxpayer dime. It's a rip-off. 
It's, you know, unions exploiting the taxpayer and, once again, 
not really putting in a full day. In some cases not putting in 
a day at all.
    Now, are there specific benefits that come from official 
time? For example, does official time cover whistleblowers, Mr. 
West?
    Mr. West. The legislation did actually set up the 
whistleblower process, and it enabled those working on official 
time to assist others who were helping to protect the Federal 
Government in terms of the waste of taxpayers' money, 
fraudulent activities that might be taking place, or any type 
of misconduct.
    Mr. Connolly. So it's not just a cost, there's a benefit. 
We recover costs. Now, I take Mr. Gilson's point and actually 
certainly am prepared to work with my Republican friends in 
trying to have more accurate data so that we know what we're 
dealing with. I think that's a totally fair point. But it has 
to work both ways. It can't just be about the cost of the 
official time itself and how we calculate it; it's also got to 
be some estimate of the benefits. What is the dollar value of 
the benefits?
    Now, in 2017, long after 1978, the GAO did a report about 
whistleblowers at the Department of Veterans Affairs, and it 
said it actually--it actually praised official time that 
facilitated the whistleblower process at the VA. What did that 
whistleblower process entail? Well, it uncovered the 
overprescribing of opioids, which is a huge problem across the 
country and certainly with some of our veteran populations, and 
long wait times for veterans, which also then led to the 
uncovering of fraudulent form filling so that the VA looked 
better than, in fact, it was.
    Does that ring a bell with you, Mr. West, what I just said?
    Mr. West. Absolutely.
    Mr. Connolly. And is there a value to that?
    Mr. West. There is great value in that. Activities that 
take place under official time save the Federal Government 
money, so all the efforts to increase transparency and collect 
better data do need to identify not just the cost side but the 
benefit side.
    Mr. Connolly. Helping our veterans and maybe to the tune of 
millions of dollars.
    Mr. West. We all remember the problems of the veterans 
hospitals several years ago, and some of those were uncovered 
because Federal employees spoke up about those.
    Mr. Connolly. And that's not just our opinion, that's the 
GAO finding in 2017.
    My time is up. I thank the chair.
    Mr. Hice. I thank the gentleman.
    I now recognize Mr. Ross for 5 minutes.
    Mr. Ross. I thank the chairman, and I thank the panel for 
being here.
    A year ago today, the House passed on suspension my bill, 
which Mr. Kovacs referred to, H.R. 1293, which is a very 
fundamental accountability transparency bill that would require 
OPM to submit a report each year, including the total amount of 
official time granted to employees. It doesn't pass judgment on 
what that time was used for, what it should be used for, 
nothing. All it does is create the transparent process of 
accounting for all official time.
    And in furtherance of that, I would like to submit for the 
record an editorial from The Ledger, a newspaper in my 
district, discussing the benefits of that particular 
legislation.
    Mr. Hice. Without objection.
    Mr. Ross. And so my first question is, is there any reason 
not to have a transparent accountability process, such as set 
forth in H.R. 1293, for the purpose of reporting official time? 
Mr. Kovacs?
    Mr. Kovacs. I think it's an excellent idea. Taxpayers 
certainly should know what Federal employees are doing while 
paid by the public.
    Mr. Ross. Mr. Gilson?
    Mr. Gilson. I honestly don't think that you'd get an 
accurate report even under a statute.
    Mr. Ross. But it is better than what we have today.
    Mr. Gilson. Absolutely, Congressman.
    Mr. Ross. So you would have no objection to that?
    Mr. Gilson. Absolutely.
    Mr. Ross. Mr. West?
    Mr. West. I certainly support efforts of greater 
transparency in getting a better handle on the costs, but we 
also need to identify the benefits and how much money has been 
saved through this activity.
    Mr. Ross. And, in fact, Mr. West, I think you helped me 
prove my case. In your testimony you say: ``Given the data 
limitations, it is impossible to know whether official time 
costs are rising, staying the same, or decreasing.''
    So in that sense, it would be good to at least have that 
baseline accountability. Now, we have that accountability in 
sick time, in vacation time, health benefits, TSP submissions. 
So this is mainly just another accounting procedure to account 
for what time is being used on union time as opposed to being 
used in taxpayer business.
    And my next question, you know, we're 435 Members of a 
board of trustees of a large organization that has the public 
trust as our foremost interest. And that public trust is 
exactly what we do with the taxpayer dollars it appropriated to 
us.
    Mr. Kovacs, can you say what benefit the taxpayers gain by 
the use of official time?
    Mr. Kovacs. I cannot.
    Mr. Ross. Mr. Gilson?
    Mr. Gilson. Yes, sir.
    Mr. Ross. And, please.
    Mr. Gilson. Mr. West is correct in one regard, and that is 
that there is a benefit in some circumstances for labor and 
management to sit down and solve problems, and to negotiate and 
to work on employee grievances. Official time has gone so far 
beyond that, that that's not just what it covers.
    For example, since the law passed, there have been over a 
quarter of a million unfair labor practice cases filed with the 
Federal Labor Relations Authority. The agencies have no say on 
them. And also, the use of official time in those cases is 
mandated by the Federal Labor Relations Authority for every 
witness, for everybody assisting one of their attorneys, for 
any employee that's engaged in that gets official time.
    Mr. Ross. Including whistleblowers. Whistleblowers don't 
need official time, do they? They're protected by statute.
    Mr. Gilson. Right. Whistleblower time is not the official 
time we're here to talk about. It's a separate matter under the 
law.
    If we're here to talk about the labor relations official 
time, that's all I'm talking about in terms of union abuse. And 
there is a great deal of union abuse of official time, at least 
in my experience.
    Mr. Ross. Is there any such similar process in the private 
sector in dealing with unions with regard to collective 
bargaining and the use of official time that anyone is aware 
of?
    Mr. Gilson. Some companies, some companies allow union 
stewards on the shop floor time to work a grievance.
    Mr. Ross. And would you say, if you know, that there is an 
accountability of that time that's being used in the 
furtherance of that private concern?
    Mr. Gilson. I think the company is going to exact a cost 
for that across the table if it's hurting productivity.
    Mr. Ross. Precisely. And so when we have a collective 
bargaining opportunity, how does it begin? What evidence is 
used by the unions to say this is how much we need in official 
time? Can you say, Mr. Gilson? Or how that process works.
    Mr. Gilson. I'm sitting at the bargaining table right now 
with a couple of agencies as their chief negotiator, and I've 
done this my whole career. What the unions--what the unions put 
on the table is a proposal, and what happens eventually is 
trade-offs are made.
    I hesitate to say this, but I believe it's true. I have yet 
to see a Federal sector union take a--anything less than a 
union institutional benefit over an employee benefit in 
negotiations. So what happens is, if an agency wants to 
accomplish something, it often trades the union benefit to get 
something done.
    Mr. Ross. Got you.
    Mr. Gilson. I've seen this happen over and over again. And 
that's how unions have managed to leverage the amount of 
official time and other costs that the agencies pay, is the 
agencies want to accomplish things--by the way, in this city, 
to get a space move done within the beltway, I've known 
agencies to take 6, 7, 8 years in negotiations because the 
unions don't want the change to happen. So they delay, they 
file complaints, they file unfair labor practices. Eventually, 
the agency has to play let's make a deal if they want the move 
to occur at all. All of that costs official time.
    Mr. Ross. Thank you, Mr. Gilson. My time has expired.
    Mr. Hice. I thank the gentleman.
    We will take some time for a few more questions if any 
members have any further.
    Let me ask you this: There are hundreds of employees making 
over $100,000 a year, and they're involved with official time. 
The Department of Veterans Affairs, for example, 472 employees, 
100 percent official time. What does this do for an agency when 
you have this many people not doing the job they were hired to 
do?
    Mr. Kovacs. Well, I would assume that it makes it more 
difficult to achieve the agency mission when you don't have--
when you have that many employees who, you know, don't perform 
any agency activity. And I think this is one of the things 
where official time is supposed to be given if it's reasonable 
and necessary and in the public interest. And I'm not sure how 
an employee who never does their regularly assigned duties can 
achieve the public interest.
    Mr. Hice. Mr. Gilson?
    Mr. Gilson. What I've seen in my career is agency 
leadership sometimes says to the line supervisor don't mess 
with the union official. We don't want to hear the noise. Keep 
the noise down, number one. Number two is that supervisors and 
managers would rather have someone who wants to cause them 
problems away from the job. So what do they do? Other employees 
cover. If they can hire somebody, they try.
    There's an expression in the business that I'm in, he's not 
heavy, he's my colleague, which a lot of people apply to in 
situations of 100 percent official time, especially in places 
where the union is less than 20 percent of the people pay dues, 
which is very common in the Federal service, less than one in 
five employees pays dues.
    Mr. Hice. Just out of curiosity, I mentioned the Department 
of Veterans Affairs, and we've got a host of other agencies, 
but the VA seems to have a large number, 100 percent on 
official time. Do any of you have any information regarding 
other agencies where there seems to be an unusually high number 
of individuals on 100 percent?
    Mr. Gilson. I think that there's quite a number in HHS, 
Social Security, and the other HHS agencies. I think in the 
Bureau of Prisons, there's a number--wherever the union 
activity is great. In Department of Agriculture's Food Safety 
and Inspection Service. In places where you see a lot of 
grievances, a lot of unfair labor practices filed, you see 
people with 100 percent.
    In addition, Mr. Congressman, the most highly paid Federal 
employees are in FDIC, the Federal Deposit Insurance 
Corporation; the Securities and Exchange Commission; National 
Credit Union Administration; and the Comptroller of the 
Currency. Those folks, when you say $100,000, some of those 
people in those agencies are make $200,000 a year.
    Mr. Hice. Right.
    Mr. Gilson. The other thing that you may not know is that 
those agencies bargain pay without a specific authorization 
from the Congress to do so.
    Mr. Hice. Okay. Several months ago, in fact, in January, I 
joined with Chairman Gowdy and Chairman Meadows and others 
writing a letter trying to request information from various 
agencies on official time. It took months and months and 
months, over 5 months, and then when we finally got a response, 
it was so difficult to compile. Staff worked countless hours 
trying to get all that information in such a way that it could 
even be remotely understandable. And we're still going through 
it.
    Do any agencies really keep track of official time usage, 
to your knowledge?
    Mr. Gilson. Some agencies have, as part of the time and 
attendance system, the employees go into their computer and put 
their hours in. If you're a union steward or official, one of 
the blocks is official time.
    Mr. Hice. And do we know, for those that use official time, 
what they are using it for? And I'm not talking about 
collective bargaining, all that kind of stuff that we know 
they're supposed to be using. What other activities are 
utilized during that time?
    Mr. Gilson. The Federal Labor Relations Authority has, 
generally, over its case law years made it an unfair labor 
practice in many cases for an agency to inquire what the union 
is using the official time for.
    Mr. Hice. So the agency doesn't even know?
    Mr. Gilson. Oh, no clue, in many cases.
    Mr. Hice. Okay. All right. I thank the gentleman.
    The gentleman recognizes Mr. Connolly for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman.
    Mr. Gilson, you talked about representing agencies on one 
side of the table and the unions are on the other side. Is that 
correct?
    Mr. Gilson. Yes, sir.
    Mr. Connolly. Is that what you do for a living?
    Mr. Gilson. Yes, sir. Well, not for a living. I'm retired. 
I do it part time.
    Mr. Connolly. All right. But have you ever been hired by a 
union to represent them?
    Mr. Gilson. No, sir.
    Mr. Connolly. Ah, okay.
    Mr. Gilson. However, I was a high school teacher union 
representative for 6 years before I became a Federal employee.
    Mr. Connolly. Good for you. Some of my best friends are 
union members.
    So we have a hearing here with a very partisan memo that 
was not cleared on our side that's filled with factual errors 
and misrepresentations. We have Mr. Kovacs who has an 
idealogical point of view about unions and what they ought to 
be doing, which is apparently very little. Even saying, just 
now, well, people are doing work they weren't hired to do, 
meaning official time. And yet when I check the law, official 
time is actually--I mean, it is actually protected by the law. 
Not like they're doing something wrong.
    Mr. Gilson makes a point I do concede and I think is 
valuable, that it has to be captured accurately. There has to 
be transparency. We've got to know how much time. But that's 
not really what this hearing is about.
    This hearing is about attacking unions, and we heard it 
from our chairman, whom I respect. He don't like the fact that 
they give money to the Democrats. And he doesn't like the fact 
that they're active. And we're going to have a hearing where we 
don't acknowledge any possible benefit from official time. And 
that disturbs me because that's not an intellectually honest 
enterprise. That's something else. That's union bashing, and 
we're apparently willing to distort facts and make assertions 
irrespective of the fact of the law Mr. West cited, which 
passed overwhelmingly.
    Mr. West, am I correct that contrary to sort of the image 
we're kind of allowing here in this hearing, that we got out of 
control union members who are running around doing things they 
shouldn't be doing and calling it official time? In every 
agency is there not an agreement that circumscribes official 
time?
    Mr. West. There are agreements. Supervisors have to approve 
the use of official time, so presumably, if these individuals 
were engaging in abhorrent acts, the supervisor would not be 
approving it. There are a number of good uses of the union 
time. We've recently seen a big increase in sexual harassment 
claims. That's something that employees are subject to and 
often need assistance in drafting those types of grievances. 
Unions often are the first line of defense for those 
individuals.
    Mr. Connolly. Is there also sort of informal 
troubleshooting that those people engage in so that it doesn't 
even get to the official grievance stage?
    Mr. West. There certainly are preliminary efforts to 
resolve disputes that take place in the workplace.
    Mr. Connolly. And might that be something management might 
actually welcome?
    Mr. West. Management should welcome that because that would 
improve the operations of the agency.
    Mr. Connolly. And make the manager's life a little easier?
    Mr. West. Exactly. And, of course, there are lots of 
efforts to reorganize, to introduce new administrative 
processes, there are new technologies coming to the workplace, 
all of which I applaud. Sometimes management needs help from 
union officials to get those things adopted.
    Mr. Connolly. And, you know, Mr. Gilson talks about 
management just throwing in the towel sometimes saying just 
appease them because it's easier than fighting. And I can see 
that. By the way, that happens in the private sector too with 
workforce.
    But what about that, Mr. West, is that something that we 
ought to be concerned about that management just--my words, not 
Mr. Gilson's, you know, allowing unions to run amuck and kind 
of run the agency instead of the other way around?
    Mr. West. Well, there should be cooperation between labor 
and management, and if that doesn't happen, we need to look at 
why that is not happening. But in a time period where I think 
all of us want the Federal Government to do a better job, we 
all want agencies to function much better, we need ways for 
employees to be able to communicate to management what is 
taking place.
    Mr. Connolly. And so another way of putting that might be 
labor management relations are kind of an important part of 
managing an agency toward its mission and its effectiveness. 
Sometimes it's done well, sometimes it's not in the public and 
the private sector. But the idea that there's a labor 
management dynamic that has to be addressed is not a new 
concept, is it?
    Mr. West. It is not a new concept.
    Mr. Connolly. I thank you, Mr. West.
    And thank you, Mr. Chairman, for a second round.
    Mr. Hice. I thank the gentleman.
    And we'll now recognize Chairman Meadows, and we'll be 
lenient on time since you missed the first round. If you have 
some extra questions, you're welcome to.
    Mr. Meadows. Well, thank you, Mr. Chairman.
    Mr. West, let me come directly to you because in your 
opening testimony, I was listening very closely, you would 
agree that we have no idea whether official time has increased 
or decreased. Is that correct?
    Mr. West. That's correct.
    Mr. Meadows. All right. And so--but you think official time 
is a good thing?
    Mr. West. Yes.
    Mr. Meadows. And so if official time is a good thing and we 
don't know whether we have more or less of it, do you not see 
that that's a problem? Because if it's a good thing, shouldn't 
we have more of it?
    Mr. West. I'd like to see better data that actually 
captures both costs and benefits.
    Mr. Meadows. Okay. Because you have someone here who 
actually had the head of a union working with me in a previous 
career, and I can tell you that the relationship was extremely 
good because official time--I recognize the law and the 
contractual reason for official time.
    Here's where I have a problem. When you have so many people 
on 100 percent official time, your statement you just made to 
the ranking member from Virginia about, well, they're supposed 
to check in with their supervisor, if they're on 100 percent 
official time, they don't have to check in. Would you agree 
with that?
    Mr. West. No. The statute says that official time has to be 
approved by the supervisor.
    Mr. Meadows. Okay. So let me ask it a different way. 
Listen, I know the answer to the question, so I'll ask it a 
different way. Those people, individuals that are on 100 
percent official time, do you believe that they have the same 
accountability that someone who may be on 25 percent official 
time to their supervisors?
    Mr. West. If their supervisor has approved it, the answer 
would be yes.
    Mr. Meadows. They have the same accountability?
    Mr. West. Yes.
    Mr. Meadows. And what quantifiable data do you have to back 
up that claim, Mr. West? Do you have anything from Brookings 
that would prove that? Because I would venture to say you do 
not. So what do you have? I'll look at the numbers. What do you 
have to back that up?
    Mr. West. I mean, my sense is if someone is working 100 
percent----
    Mr. Meadows. I'm not asking for your sense. I'm asking for 
real data to back up your claim.
    Mr. West. We've done a lot of research through our public 
management center. I spent 40 years kind of looking at 
governance questions. We do a lot of work on Federal agencies 
and how to improve their performance, and if supervisors are 
approving this----
    Mr. Meadows. Good, so you spent 40 years. Do you have any 
quantifiable data to suggest that someone who's on 100 percent 
official time has the same accountability to their management 
as someone that is on partial official time?
    Mr. West. If they're helping their colleagues file 
grievances, resolve disputes, communicate with management, 
there's accountability there.
    Mr. Meadows. You answered a great question I didn't ask. I 
asked, do you have any quantifiable data to support that 
hypothesis, Mr. West? After 40 years, do you have any data to 
support it?
    Mr. West. I'm just giving you the benefits of my research 
and case studies that we have undertaken----
    Mr. Meadows. So yes or no, do you have quantifiable data?
    Mr. West. Based on our research, we think the answer to 
that is that there is evidence in support of that.
    Mr. Meadows. All right. So the quantifiable data, we'll 
give you 30 days to get to this committee if you've got it. Is 
that enough time?
    Mr. West. Yes.
    Mr. Meadows. All right. And so you're going to commit to 
get quantifiable data on that question.
    Mr. West. I will give you the benefit of my impressions, 
yes.
    Mr. Meadows. That's not what I'm asking for. We already 
have your impression. You're an expert witness. You're here. 
What I'm looking for is data.
    Here's my problem. I'm willing to go with the ranking 
member on acknowledging that we have to have official time. 
Even there are some who probably ought to have 100 percent 
official time if indeed they're the head of this and they're 
doing--but at the same time, we have to have some kind of 
matrix to figure out who is being accountable and who is not, 
because according to your testimony, it's a good thing, and we 
need to understand when it's a good thing and when it's not. 
Wouldn't you agree?
    Mr. West. Yes, I would agree with that.
    Mr. Meadows. Okay. So if we have to make that 
determination, I have a real concern that we have people that 
they don't have to check in with their management. I'm on 100 
percent official time. In fact, as a supervisor, I wouldn't 
expect them to be around if they were on 100 percent. I 
wouldn't ask them to do any work on behalf of the taxpayer if 
they're 100 percent.
    Do you see how that accountability may not be the same as 
someone who was only there part time?
    Mr. West. All I know is the statute still requires 
supervisor approval even if somebody is working 100 percent on 
official time.
    Mr. Meadows. All right. Do you--in your 40 years of 
experience, have you ever seen anybody who did not get 
supervisor approval?
    Mr. West. I don't know the answer to that question.
    Mr. Meadows. So you've not seen anybody ever--and you've 
studied this, and you've never seen anybody not get supervisory 
approval in 40 years. That's your sworn testimony here today?
    Mr. West. I don't know the answer to that question.
    Mr. Meadows. Well, either you know or you don't. I mean--so 
you've not seen anybody?
    Mr. West. I can't answer that question.
    Mr. Meadows. Mr. Gilson, have you seen anybody, ever?
    Mr. Gilson. Over and over and over again.
    Mr. Meadows. Okay. Mr. Kovacs, in your experience, have you 
seen that the accountability at some times is less than robust?
    Mr. Kovacs. Yeah. I mean, 2009 National Labor Relations 
Board Inspector General report showed that consistently 
supervisors did not approve of official time.
    Mr. Meadows. Okay. But you weren't aware of that report, 
Mr. West. Is that correct?
    Mr. West. Which report?
    Mr. Kovacs. The 2009 inspector general report from the 
National Labor Relations Board.
    Mr. West. I've not seen that report.
    Mr. Meadows. But you study it and you're an expert. You 
weren't aware of that?
    Mr. West. I've not seen that report, no.
    Mr. Meadows. I didn't ask you if you've seen it. Were you 
aware of it? That's a different question.
    Mr. West. I'm aware the inspector general does lots of 
reports.
    Mr. Meadows. All right. Mr. Chairman, I can see that this 
line of questioning is not producing any real results for me or 
Mr. West, so I'll yield back.
    Mr. Hice. I thank the gentleman.
    Are there any other questions?
    Mr. Connolly. Mr. Chairman, I would just say, in the spirit 
of what's good for the goose is good for the gander, if we're 
going to insist that Mr. West provide data in support of 
official time, I'd certainly like to see data to corroborate 
Mr. Gilson's anecdotal observation that over and over and over 
again he has witnessed----
    Mr. Meadows. Yeah. I have no objection to that.
    Mr. Connolly. I thank my friend.
    Mr. Meadows. And am I the goose or the gander?
    No. I'm kidding.
    Mr. Hice. We may want to end there.
    I want to thank the witnesses for joining us today. We 
appreciate you taking time. And the members who remained as 
well, thank you very much.
    The hearing record will remain open for 2 weeks for any 
member to submit a written opening statement or questions for 
the record.
    If there's no further business, without objection, the 
subcommittee stands adjourned.
    [Whereupon, at 11:48 a.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
               
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>
</pre></body></html>
